COCKLE

CAL en Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

 

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No.

KEITH Y. ARAKAKI,
Petitioner,
v.

MEGAN J. BRENNAN, POSTMASTER GENERAL,
and UNITED STATES POSTAL SERVICE,

Respondents.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORART in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 4343 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 4th day of December, 2019.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary - ‘
State of Nebraska . 7
My Commission Expires Nov 24, 2020 e

 

Notary Public

38733
